<html>
<title> - CLIMATE CHANGE TECHNOLOGY RESEARCH: DO WE NEED A ``MANHATTAN PROJECT'' FOR THE ENVIRONMENT?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




CLIMATE CHANGE TECHNOLOGY RESEARCH: DO WE NEED A ``MANHATTAN PROJECT'' 
                          FOR THE ENVIRONMENT?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2006

                               __________

                           Serial No. 109-197

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform








                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

30-692 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001














                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                         Benjamin Chance, Clerk
                         Michael Galindo, Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 21, 2006...............................     1
Statement of:
    Eule, Stephen D., Director, Climate Change Technology 
      Program; and John B. Stephenson, Director, Government 
      Accountability Office......................................    27
        Eule, Stephen D..........................................    27
        Stephenson, John B.......................................    42
    Lane, Lee, executive director, Climate Policy Center; Richard 
      Van Atta, senior research analyst, Institute for Defense 
      Analyses; Martin Hoffert, emeritus professor, New York 
      University; Robert Socolow, former director, Center for 
      Energy and Environmental Studies, Princeton University; and 
      Daniel Kammen, director, Renewable and Appropriate Energy 
      Laboratory, University of California at Berkeley...........    77
        Hoffert, Martin..........................................   124
        Kammen, Daniel...........................................   156
        Lane, Lee................................................    77
        Socolow, Robert..........................................   149
        Van Atta, Richard........................................    99
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   206
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Eule, Stephen D., Director, Climate Change Technology 
      Program, prepared statement of.............................    29
    Hoffert, Martin, emeritus professor, New York University, 
      prepared statement of......................................   128
    Kammen, Daniel, director, Renewable and Appropriate Energy 
      Laboratory, University of California at Berkeley, prepared 
      statement of...............................................   159
    Lane, Lee, executive director, Climate Policy Center, 
      prepared statement of......................................    79
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    22
    Socolow, Robert, former director, Center for Energy and 
      Environmental Studies, Princeton University, prepared 
      statement of...............................................   151
    Stephenson, John B., Director, Government Accountability 
      Office, prepared statement of..............................    44
    Van Atta, Richard, senior research analyst, Institute for 
      Defense Analyses, prepared statement of....................   102
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    12




















 
CLIMATE CHANGE TECHNOLOGY RESEARCH: DO WE NEED A ``MANHATTAN PROJECT'' 
                          FOR THE ENVIRONMENT?

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:25 a.m., in 
room 2157, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Tom Davis, Shays, LaTourette, 
Waxman, Lantos, Maloney, Kucinich, Clay, Watson, Van Hollen, 
Higgins, Norton, Cummings, Platts, and Bilbray.
    Staff present: David Marin, staff director; Larry Halloran, 
deputy staff director; Jennifer Safavian, chief counsel for 
oversight and investigations; Mindi Walker, professional staff 
member; A. Brooke Bennett, counsel; Michael Galindo and 
Benjamin Chance, clerks; Greg Dotson and Alexandra Teitz, 
minority counsels; Earley Green, minority chief clerk; and Jean 
Gosa, minority assistant clerk.
    Chairman Tom Davis. Good morning, and welcome to today's 
hearing on climate change technology. As we sit here today, the 
debate over climate change science continues, but this 
committee, as well as the administration and many others in 
Government, already have recognized the important facts: that 
global mean temperature has increased over the past century, 
and that carbon dioxide in the atmosphere has contributed in 
some way to this warning.
    With that in mind, our committee seeks to move away from 
debating science to finding solutions. The purpose of today's 
hearing is to learn about the Federal Government's climate 
change research and development programs, specifically those 
dedicated to exploratory or innovative technology. We are also 
going to discuss the best ways to steer these initiatives.
    Right now, the administration spends nearly $3 billion on 
climate change technology research. Ostensibly, this research 
falls under the umbrella of the President's climate change 
technology program. The characterization of the CCTP, however, 
is misleading, because the CCTP has no budgetary authority. The 
billions of dollars that fund CCTP actually are dispersed 
directly to Federal agencies without CCTP approval. In fact, to 
date the CCTP has only received $1.5 million in program support 
to supplement the creation of its strategic plan, which 
outlines the current research and future priorities of the 
program.
    Without direct funding, CCTP does not employ full-time 
staff, and both Director Stephen Eule and Deputy Director 
Robert Marlay hold other positions within the Department of 
Energy. Currently, CCTP employs neither administrative nor 
analytical staff; it shares personnel with other offices on an 
as-needed basis.
    Additionally, thus far the Federal Government has yet to 
engage in any exploratory or innovative technology research on 
climate change. Under the current funding structure, only near 
and mid-term technology research programs receive R&D dollars. 
Climate clinicians that lie outside of existing technology, 
such as geo-engineering and artificial photosynthesis, remain 
unaddressed.
    Although CCTP is capable of commenting on technology-
focused projects conducted across 13 Federal agencies under the 
program, in its current state CCTP simply does not have the 
authority to allocate funds for climate technology projects, 
begging the questions: one, how well are we coordinating 
climate change technology research? And, two, because of the 
present configuration of Federal climate change technology 
research, is it necessary to create a central, authorized body 
to command exploratory research, an ARPA for climate change?
    The Defense Advanced Projects Agency, DARPA, was created to 
turn innovative technology into military capabilities. The 
agency is highly regarded for its work on the Internet, high-
speed microelectronics, stealth and satellite technologies, 
unmanned vehicles, and new materials, all of which produced not 
only military advancement but commercial benefits, as well.
    Unlike the CCTP, DARPA can segregate itself somewhat from 
its governing body, the Pentagon, and remain a small and 
flexible agency capable of quickly exploiting emerging 
technologies and adapting to immediate military circumstances. 
Conversely, CCTP remains under the strict direction of the 
Cabinet-level Committee on Climate Change Science and 
Technology Integration [CCSTI], reducing the likelihood it will 
support novel concepts in climate technology research. Given 
its strict structure and limited authority, would the CCTP be 
the appropriate body to potentially manage a free-thinking and 
innovative exploratory technology agency?
    To date, the under-funded and administratively barren 
climate change technology program has yet to sufficiently 
coordinate and influence the technology research initiatives 
conducted by the multiple Federal agencies under its charge, 
let alone manage potential new exploratory technology research 
programs such as the Climate Change Advanced Research Projects 
Agency [CCARPA].
    It is time to say CCARPA Diem and seize the opportunity to 
take technology research to the next level by bringing CCTP to 
the forefront of the U.S. climate change agenda. Or will the 
full initiative of CCTP prove sufficient to guide climate 
change technology research into the future? These are the 
questions that we hope to begin resolving today.
    The committee has invited several highly qualified 
individuals to address these uncertainties. We will hear from 
Dr. Stephen Eule, the Director of CCTP, on the status of 
climate change technology in the United States and on his role 
in overseeing climate change technology and potential budgetary 
or organizational obstacles to the full implementation of a 
centralized climate technology program.
    We will also hear from the GAO on the ambiguity of the 
appropriations to agencies with regard to climate change and 
the need for more clear disclosure of the nature of climate 
change research and development funding.
    Also, we will explore the merits and challenges of creating 
a Federal climate change exploratory technology program and 
will hear from experts on DARPA about the applicability of 
instituting a CCARPA for exploratory technology research and 
development.
    Global climate change is one of the most serious 
environmental concerns of the 21st century. This committee has 
taken an important step by discussing how the Federal 
Government can better arm itself with technology to address 
this worldwide problem.
    I would like to thank all of our witnesses for their 
invaluable insights in this issue.
    [The prepared statement of Chairman Tom Davis follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Tom Davis. I would now like to recognize our 
distinguished ranking member, Mr. Waxman, for his opening 
statement.
    Mr. Waxman. Thank you, Mr. Chairman.
    Today's hearing will begin to examine what policies 
Congress should consider for addressing the major threat of 
global warming. We will hear from some of the Nation's leading 
experts on global warming and technology. They will present 
their views of how we move forward to take carbon out of the 
world's economy.
    I believe almost all of us agree that global warming is 
occurring and action must be taken to avoid potentially 
catastrophic impacts to our country and the world. Our position 
reflects the scientific consensus which only a small cadre of 
oil-industry-funded propagandists are still denying. But, 
despite this committee's interest, it would be a serious 
mistake for anyone watching this hearing to conclude that 
either the administration or the Republican leadership in 
Congress is willing to tackle the problem. That is why I would 
like to take a moment to review the past 6 years.
    President Bush and Vice President Cheney came into office 
determined to radically change the Nation's energy policy, and 
that is what they did. They crafted their policy with oil 
companies like Exxon and Mobil and refused to meet with 
consumer or environmental groups. Their plan bestowed countless 
favors on oil, coal, and other polluting industries and it 
abandoned the President's pledge to reduce greenhouse gas 
emissions. In fact, under the plan they developed, we have 
wasted precious years and exacerbated global warming.
    During the last 6 years there have been many constructive 
ideas put forward. For example, in July 2002 the Pugh Center on 
Global Climate Change released a report on designing a climate 
friendly energy policy. In July 2003, the Energy Future 
Coalition released an energy plan to fight global warming and 
address the political and economic security threat posed by our 
dependence on oil. In January 2004, the Apollo Alliance, a 
coalition of labor unions, environmental groups, and other 
public interest groups proposed an energy policy to modernize 
America's energy infrastructure and fight global warming. In 
April 2005, the Natural Resources Defense Council released a 
paper proposing an energy policy that would enhance our 
national security and reduce air and water pollution while 
curbing global warming and creating jobs. But these ideas to 
move us forward fell on deaf ears. The Republican Congress was 
simply uninterested in learning about the problem, let alone 
addressing it.
    In December 2004, the bipartisan National Commission on 
Energy Policy released a plan to address the Nation's long-term 
energy challenges, including oil dependence and global warming. 
The commission was composed of Republicans and Democrats, 
industry and environmentalists, and they had figured out a way 
to come together, yet the chairman of the Energy and Commerce 
Committee would not even hold a hearing on the plan.
    Recently the administration has begun to change its 
rhetoric on global warming. Unfortunately, it is only the 
rhetoric that is changing. They are sticking with their policy 
of denying the urgency of the problem and delaying any real 
action.
    That has to change. We have already lost 6 years. Mr. 
Chairman, that is why our committee holding these hearings 
stands out in stark contrast to what the rest of the Congress 
has been doing.
    Today we are going to hear about the administration's 100-
year strategic plan. The name is impressive, but inside the 
covers the plan has no time line for actions, no goals for what 
we need to achieve. Thinking about technology research and 
development is very important, but by itself it will do nothing 
to solve the problem.
    Thank you.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Tom Davis. Thank you, Mr. Waxman.
    Do other Members wish to speak? Mr. Shays.
    Mr. Shays. Thank you. Mr. Chairman, thank you for holding 
this hearing.
    We are failing to deal with this problem not because of 
Republicans; we are failing to deal with this problem because 
there is not a bipartisan effort to move forward on this issue, 
and it goes back a long ways. It goes back to when President 
Clinton was President and he negotiated Kyoto and there was a 
bipartisan resolution in the Senate that passed 100 percent. It 
said don't leave India and China out of Kyoto. They left India 
and China out of Kyoto. The treaty was negotiated. It was 
brought before us and President Clinton never ever submitted it 
to Congress because he only had five or six supporters in the 
entire Senate.
    It is fascinating to me. I wish this President had 
submitted it so all the Senators who criticize him now would 
have been faced with voting for it, because at the time they 
weren't going to support it.
    There is a bipartisan effort to kill what is so logically 
something we should do: making better use of the energy we 
have. Minivans, SUVs, and trucks should get the same mileage as 
cars, but the dean of the House, Mr. Dingell, in a bipartisan 
effort with other Members who represent the automobile 
manufacturers, not the oil industry, labor unions who oppose 
getting minivans, SUVs, and trucks to get the same mileage as 
cars opposed it. That is our problem.
    We can make it a partisan issue and it is great for an 
election, but it is not the truth. The truth is we need to work 
together, Republicans and Democrats, to solve what is a huge 
problem.
    I introduced a bill with Maurice Hinchey supported by the 
League of Conservation Voters--not a very partisan group, I 
would say. The purpose is to get minivans, SUVs, and trucks to 
get the same mileage as cars, to take out of the energy bill 
that I voted against, to take out the dollars and tax write-
offs that were going to the fossil fuel industry and put it 
into alternative fuels.
    That bill remains to be supported by Members on both sides 
of the aisle. It is bipartisan. It would move the agenda 
forward. But because we have decided that this is a tough 
election year and we are going to target certain Members, we 
are going to tell Members on the other side of the aisle they 
are going to be told by their leadership not to cosponsor 
legislation supported by any Member who is targeted.
    So when we get all of this political garbage that you are 
going to hear from Members about how this is a partisan issue, 
when we can get beyond that and we can get the election done 
with, I hope Nancy Pelosi will, as my own leadership, say that 
we need to work together instead of the Democrats going further 
to the left and Republicans going further to the right.
    Hopefully we will start to hear Members on both sides of 
the aisle start to be bipartisan again, talk bipartisan, and 
stop trying to make such a serious issue a partisan issue when 
it isn't.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman. I want to 
thank you and Ranking Member Waxman for your leadership on this 
issue.
    My approach to this whole subject stems from my possession 
as the ranking Democrat on the House International Relations 
Committee and the ramifications of our energy policy or lack of 
energy policy on our international position. I will have a word 
or two to say about that later.
    I have been disappointed and dismayed by this 
administration's position on climate change. Despite 
overwhelming scientific evidence that global warming is taking 
place, the administration has basically removed itself from the 
international conversation and worked to stifle Government 
scientists. This is willful ignorance about the severe 
challenges and strengths that will be placed on future 
generations by the results of climate change.
    Coupled with an alarming lack of foresight for the national 
security implications these effects will have on our world, the 
administration's policies have significantly weakened our 
efforts toward the solution of this problem.
    The science on the issue is incontrovertible and the need 
to respond is immediate. The actions taken by the President and 
this Congress thus far have been woefully inadequate. It is my 
hope that this hearing just might be the straw that breaks the 
camel's back against the misinformation campaign engineered by 
some key energy companies which have sown seeds of doubt and 
have slowed a legitimate debate to occur.
    Our Nation's reliance on foreign oil, which is my principal 
concern, means that we are providing the enemies of freedom 
with the resources to oppose the United States or even to wage 
war against us. If you heard last night Chavez at the United 
Nations in New York you know exactly what I am talking about. 
But whether it is Chavez, Ahmadinejad of Tehran, Putin in 
Moscow, or the Wahabis in Saudi Arabia, the amplified voice of 
these forces of anti-democracy and anti-freedom must be 
enormously enlarged by virtue of their incredible oil income 
which they have gained largely as a result of our policies.
    The United States is a leader in scientific research and 
technological discovery and we have witnessed the extraordinary 
results of what happens when our Nation harnesses this 
intellectual resource with the Manhattan Project, which made us 
the first project to harness the energy of the atom, or the 
Apollo Project that put an American on the moon.
    The most abundant source of new energy, Mr. Chairman, is 
conservation. Although we must provide the impetus for research 
and development into new technologies, the most immediate and 
effective means of reducing our reliance on current fuel 
sources is to be intelligent about cutting back on their use. 
That is not a matter of creating new technologies but making 
people more conscious of existing ways to reduce energy waste.
    The time has come for America to rise up and face the 
challenge of relieving itself from its dependency on carbon-
based energy and the pollutants that come with it. We need to 
reach beyond our current energy policy and achieve this goal 
through a nationwide effort combining both conservation efforts 
and increases in research and development of alternate energy 
sources.
    Mr. Chairman, while this hearing is ostensibly about 
American Government policy and the need for a nationwide 
project to make America a carbon neutral nation, let me speak 
for a moment on the international relations aspect of this 
project and the imperative need for us to reach out to the 
global community on this issue.
    We must re-engage the international community in order to 
seek successful solutions and best practices. The 
interconnection of international energy policy and the effects 
on climate change will only continue to increase in the years 
ahead.
    I hope that our President and our Congress can have the 
vision of a Roosevelt or a Kennedy to see over the horizon. We 
need to lead the American people to work together to unshackle 
us from our dependency on foreign energy and to preserve the 
environment for the sake of those who will inherit this world 
from us.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Are there other Members who wish to make opening 
statements? Yes, ma'am, Ms. Watson.
    Ms. Watson. Mr. Chairman, thank you so much for convening 
today's hearing. I commend your timeliness on the issue 
pertaining to energy policy.
    This hearing explicitly highlights the administration's 
research and development activities, or lack thereof, on 
technologies to address global warming and the administration's 
strategy on addressing global warming. I am haunted by the fact 
that the year before last, when we attended a conference in 
Cutter, there was someone from the Department of Commerce that 
made the idea of global warming into a myth. It was a Dr. Lash. 
Just recently we got into quite a warm discussion after his 
remarks, because it said to the world that we were 
hallucinating if we thought global warming was a real thing. 
Just recently he ended up in the newspapers as one who killed 
his 12 year old son and himself. I saw indications of a hot-
headed approach there in Cutter.
    Energy is essential to the American lifestyle. The United 
States has only 2 percent of the world's oil reserves, but 
accounts for 25 percent of the world's energy demand. Of the 
global supply, we consume 43 percent of motor gasoline, 25 
percent of crude petroleum, 25 percent of natural gas, and 26 
percent of electricity. Currently, American demand for all 
these commodities is rising dramatically, while climate change 
is on the rise, as well.
    On the production side of the issue, the generation and 
delivery of energy is a serious challenge. Procurement of 
energy is a challenge of engineering, a challenge of planning, 
and a challenge that evokes the most serious aspects of our 
foreign policy. Moreover, energy is a key factor in the 
environmental challenges we face in modern America and in the 
world. Reliance on fossil fuels causes serious air and water 
pollution and it is the source of constant pressure to exploit 
our last precious wildlands.
    As the petroleum demand intensifies, Americans will remain 
exposed to the environmental cost and the harmful public health 
impacts associated with the dependence on oil. Global warming 
is occurring at a rapid pace today, and the consensus of the 
worldwide scientific community is that it will accelerate 
during the 21st century.
    Global warming and our related energy policies also raise 
national security concerns. One such concern is the prospect of 
international destabilization caused by the consequences of 
global warming such as the loss of land area of the loss of 
water resources.
    Mr. Chairman, I have stated in previous hearings, we have a 
chance to start again to create adequate climate change 
research and development that can help our world in the future, 
so I look forward to today's hearing and I look forward to 
hearing from the witnesses and I think that you are beginning 
and we are beginning to play a vital role on environmental 
safety in our world.
    Thank you so much.
    Chairman Tom Davis. Thank you very much.
    Mr. Bilbray.
    Mr. Bilbray. Yes, Mr. Chairman. I want to thank you for 
holding this hearing and want to publicly thank you for letting 
me participate on this committee for the rest of this session.
    Mr. Chairman, you may know but other Members may not know 
that I had the privilege of serving for 6 years on the State 
Air Resources Board for the State of California. I was very 
proud to participate in that agency because California has the 
distinction of having an agency that has done more to reduce 
emissions than any agency anywhere else in the world. The Air 
Resources Board in California is second to none. It has led on 
many, many issues, as the ranking member will remind us, many 
times, both in his presentations and his writings.
    But one of the reasons why that agency has been so 
successful in the past and I am sure will be successful in the 
future, the Air Resources Board in California does not allow 
partisan bickering to stand between getting to the answer. They 
don't allow the fact of posturing to be the primary motivation 
there. I have been very, very pleased to work with Democrats 
and Republicans in that body. But I have to tell you, since 
coming to Congress and leaving that body, I have been 
frustrated with the fact that science gets put on a back burner 
in Washington all too often for partisan fighting, but at the 
same time people don't want to look at the fact that the guilt 
rests on both sides of the political aisle.
    I was very frustrated with my first term in Congress here 
when I saw that the Clinton administration talked a lot about 
global warming, a lot about this issue on emissions. At the 
same time, the only policy I saw really being pushed at that 
time was the decommissioning of zero emission generators such 
as hydroelectric and nuclear. I saw an obsession with the 
destruction of zero emission generators without any identifying 
where the alternative power was going to come from without 
contributing to the global warming and the emissions issue.
    So I am very excited to be able to say that there are 
opportunities here. I hope that we join together. I have been 
frustrated with the discussion that global warming and Kyoto 
are somehow tied together. I do not see how any of us can take 
care of the global warming without working together, but I also 
do not see how we are going to justify any global warming 
policy that exempts the Third World, and especially China. I 
see that Kyoto was a non-starter, and we should have been brave 
enough to be able to recognize that there is a problem out 
there but the answer that was being proposed was not an answer 
to the problem.
    I hope to be able to take some of the experience I have 
been able to bring from California and hopefully work with both 
sides of the aisle to try to address this issue, but I think 
that we need to stop finding barriers to getting to answers and 
quit finding excuses just to fight about it.
    Thank you very much, Mr. Chairman. I yield back my time.
    Chairman Tom Davis. Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. I would like 
permission to place my remarks in the record----
    Chairman Tom Davis. Without objection, so ordered.
    Mrs. Maloney [continuing]. And just ask to be associated 
with the comments of Mr. Waxman and Mr. Lantos and Ms. Watson. 
I think Ranking Member Lantos' statement of the danger this 
poses in the world community and in our search for peace was 
very relevant.
    Ms. Watson, you talked about how many skeptics are out 
there that have kept saying that it is not a problem. I 
appreciate the comment on the other side of the aisle that 
science too long has been put on the back burner. Scientists 
have been telling us for a long time that this is one of the 
gravest challenges that we confront, and there have been many 
skeptics, such as the one she described from the Commerce 
Department, that have made light of this very serious 
challenge.
    I would like to place in the record this photograph of the 
Arctic climate impact assessment of 2004. It shows the extent 
of the surface ice melting in Greenland between 1992 and 2002. 
They say one picture is worth a thousand words. It truly shows 
that we are losing the snow in Greenland, and other photographs 
of the Antarctic, even Florida, shows a very changing coastline 
with the multi-meter rises in sea level. This is a very serious 
problem.
    I congratulate former Vice President Al Gore on his book An 
Inconvenient Truth and the movie The Inconvenient Truth. It was 
inspiring for me to see a documentary literally have people 
standing in lines waiting to get in to see it. I think he 
helped beyond a shadow of a doubt to close the mouths of the 
skeptics whom I think are just people who don't want to do 
anything.
    I welcome this hearing today on global warming technology 
and research, but say that there is so much that we could do 
besides research right now, such as put a cap on CAFE 
standards, such as: switching from coal and oil to natural gas; 
increasing efficiency of energy in use and buildings, 
transportation, and industry; transition to a lower energy 
intensity mix of economic activities.
    There are so many actions that we could take right now to 
address this, so I urge my colleagues not only to be looking at 
technology and research but looking at technical possibilities 
that we can take right now to reduce energy intensity and 
carbon intensity on our planet. I truly believe it is the most 
important issue facing us for the future of our country and the 
health of our planet, so I thank you for this hearing and would 
like to place in the record these papers.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Tom Davis. Without objection they will be placed 
in the record. Thank you, Mrs. Maloney.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    The title of this hearing is Climate Change Technology 
Research: Do we need a Manhattan Project for the Environment? I 
would respectfully suggest this is kind of an unfortunate title 
for this particular hearing. The Manhattan Project harnessed 
the scientific genius of America for a purely destructive 
purpose, the building of nuclear weapon, under conditions of 
assorted history of human experimentation and spawned a nuclear 
industry which drove up utility rates and gave us nuclear waste 
forever. Nuclear weapons now constitute a threat to the 
survival of our entire planet, and certainly, as Jonathan 
Schell pointed out in his book, Fate of the Earth, a threat to 
the common global environment.
    Now, if we are talking about saving the planet, maybe we 
should come up with an analogy that is not so obviously 
contradictory. Asking whether we need a Manhattan Project for 
the environment begs the question don't we already have one. 
Everything about our energy policies are destabilizing. Oil 
runs our politics, bringing with it not only the injurious 
effects of climate change but war, environmental ruin, economic 
decline, manipulation of prices, oil politics are visiting us 
right now on the eve of an election. You see the prices 
dropping at the pump trying to lull the public to sleep about 
the game that is being played by the oil companies in 
cooperation with the administration.
    Global warming? Until recently, scientists for hire were 
ready to discount the result of our destructive energy policies 
and urging administrations to refuse to participate in the 
Kyoto Climate Change Treaty. I would agree with the colleague 
that we ought to talk to China, but wouldn't it be good if we 
had trade agreements that held environmental quality principles 
as one of the bases for international trade.
    Mr. Chairman, I have to submit for the record here a study 
of the Manhattan Project called the New and Secret World of 
Human Experimentation. I also have my statement, which calls 
for new direction with respect to sustainable energy choices 
like wind, solar, ocean, geothermal, and with a call for 
investment to match the intention of changing our energy 
policies. We really ought to change the title of the hearing 
though.
    Thank you.
    Chairman Tom Davis. Thank you. Maybe we ought to call it a 
Marshall plan. Do you like that better?
    Mr. Kucinich. You know, yes, like rebuilding after a war. 
Yes, that is a great idea.
    Chairman Tom Davis. OK.
    Next, Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you for 
holding this hearing, and to Ranking Member Waxman for his 
leadership on this very important issue.
    I agree with statements made by my colleagues really some 
on both sides of aisle here with respect to the importance of 
moving forward in a bipartisan manner, but to do that we are 
going to have to make decisions based on science and based on 
the facts.
    Everyone is entitled to their own opinions, but everyone is 
not entitled to their own set of facts. Unfortunately, here in 
political Washington people seem to think that they can make up 
the facts as well as making up the policy. There is an absolute 
scientific consensus that global warming is real and that there 
is an important human contribution to the problem, and so, 
though we have settled science and settled facts on that 
question, we continue to have a lack of political leadership on 
this very important issue.
    We continue to have, for example, the chairman of the 
Environment and Public Works on the Senate side say that the 
whole global warming issue is the greatest hoax ever 
perpetuated on the American people. We had a Member of the 
House on the Science Committee in a hearing yesterday saying 
that the whole thing was made up, as well. Even the President 
of the United States, when he talks about this issue as he did 
in July in People Magazine, sort of said there is an open 
question with respect to whether or not there was a human 
component to the global warming question. He said it was a 
question of debate.
    So, until the political leadership in Washington begins to 
deal with the facts, we are not going to be able to move 
forward. We can have disagreements with respect to what the 
best policy is, but we need our political leadership to begin 
to take responsibility for accepting what the scientific 
community has told us with respect to this very important 
issue, and then we need to move forward, and we need to move 
forward quickly, and we need to stop passing energy legislation 
that continues to provide big subsidies to the oil and gas 
industry and channel those funds instead into renewable energy 
and energy efficiency areas.
    So I welcome the comments on both sides of the aisle about 
the need to move forward on a bipartisan basis on this issue, 
but, unfortunately, we have on the one hand people who continue 
to misrepresent the facts with respect to the science, and 
unfortunately the reality of the situation is the legislation 
that is passed out of the Congress has not demonstrated that 
people have come to grips with the reality of the science on 
this issue.
    I hope we will begin to turn that situation around and 
begin to have policy coming out of here and political 
leadership that matches the facts with respect to this very 
important issue.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you, Mr. Van Hollen.
    If there are no more opening statements, we will now 
proceed to our first panel. We have Dr. Stephen Eule, the 
Director of Climate Change Technology Program, and Mr. John 
Stephenson, the director of Government Accountability Office.
    Thank you for bearing with us through our markup and 
opening statements.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Eule, we will start with you. Thank 
you for being with us.

    STATEMENTS OF STEPHEN D. EULE, DIRECTOR, CLIMATE CHANGE 
     TECHNOLOGY PROGRAM; AND JOHN B. STEPHENSON, DIRECTOR, 
                GOVERNMENT ACCOUNTABILITY OFFICE

                  STATEMENT OF STEPHEN D. EULE

    Mr. Eule. Thank you, Chairman Davis, Ranking Member Waxman, 
and members of the committee. Thank you for the opportunity to 
appear before you today to discuss the climate change 
technology program and its strategic plan, which was released 
yesterday.
    The administration believes that the most effective way to 
meet the challenge of climate change is through an agenda that 
promotes economic growth, provides energy security, reduces 
pollution, and mitigates greenhouse gases. To meet these goals, 
the administration has established a comprehensive approach, 
major elements of which include policies and measures to slow 
the growth in greenhouse gas emissions, advancing climate 
change science, accelerating technology development, and 
promoting international collaboration.
    Since fiscal year 2001 the Federal Government has devoted 
nearly $29 billion to climate change programs. In 2002, 
President Bush set a goal to reduce the Nation's greenhouse gas 
intensity--that is, emissions per unit of economic output--by 
18 percent by 2012. To this end, the administration has 
implemented about 60 Federal programs, and recent data suggests 
we are well on our way toward meeting the President's goal.
    While acting to slow the growth of greenhouse gas emissions 
in the near term, the United States is laying a strong 
scientific and technological foundation. In 2002, two multi-
agency programs were established to coordinate Federal climate 
science and technology R&D activities, the climate change 
science program [CCSP], and the climate change technology 
program [CCTP].
    CCSP is an inter-agency planning and coordinating entity 
charged with investigating natural and human-induced changes in 
the Earth's global environmental system, monitoring 
understanding of predicting global change, and providing a 
sound scientific basis for decisionmaking.
    CCTP, which was authorized in the Energy Policy Act of 
2005, was formed to coordinate and prioritize the Federal 
Government's investment in climate-related technology, which 
was nearly $3 billion in fiscal year 2006, and to further the 
President's national climate change technology initiative 
[NCCTI].
    Ten R&D agencies participate in CCTP. The program's 
principal aim is to accelerate the development and lower the 
cost of advanced technologies that reduce, avoid, or sequester 
greenhouse gases. CCTP strives for a diversified Federal R&D 
portfolio that will help reduce technology risk and improve the 
prospects that such technologies can be adopted in the 
marketplace.
    In August 2005, CCTP issued its vision and framework for 
strategy and planning, which provided broad guidance for the 
program, and shortly thereafter released its draft strategic 
plan for public review. More than 250 comments were received 
and considered.
    This revised strategic plan articulates a vision of the 
role for advanced technology in addressing climate change, 
establishes strategic direction, guiding principles, outlines 
approaches to achieve CCTP's strategic goals, and identifies a 
series of next steps. The six CCTP goals are: reducing 
emissions from energy use and infrastructure, reducing 
emissions from energy supply, capturing and sequestering carbon 
dioxide, reducing emissions of non-carbon-dioxide greenhouse 
gases, measuring and monitoring emissions, and bolstering the 
contributions of basic science.
    The strategic plan defines a clear and promising role for 
advanced technologies for the near, the mid, and the long-term; 
outlines a processes and establishes criteria for setting 
priorities, such as those in NCCTI; and provides details of the 
current climate change technology portfolio, with links to 
individual technology road maps.
    CCTP's portfolio includes realigned activities, as well as 
new initiatives, such as the President's advanced energy and 
hydrogen fuel initiatives, carbon sequestration, and future 
gen.
    CCTP agencies also periodically conduct portfolio reviews 
to assess the ability of these programs to meet CCTP goals and 
to identify gaps and opportunities. In addition, CCTP uses 
scenario analyses to assess the potential climate change 
benefits of different technology mixes over the century on a 
global scale and across a range of uncertainties. When 
comparing the costs of achieving different greenhouse gas 
constraints, the cost savings for the advanced technology cases 
were 60 percent or more.
    The administration believes that well-designed multi-
lateral collaborations can leverage resources and quicken 
technology development. The International Partnership for the 
Hydrogen Economy, Carbon Sequestration Leadership Forum, 
Generation Four International Forum, Methane to Markets--all 
U.S. initiatives--and the ITER Fusion Project provide vehicles 
for international collaboration to advance these technologies. 
The new Global Nuclear Energy Partnership seeks to develop a 
worldwide consensus on approaches to expand safe use of zero 
emission nuclear power.
    Of course, through the Asian Pacific Partnership the United 
States is working with Australia, China, India, Japan, and 
South Korea to accelerate the uptake of clean technologies in 
this rapidly growing region of the world.
    The United States has embarked on an ambitious undertaking 
to advance climate change technologies. CCTP's strategic plan, 
the first of its kind produced by any government, sets out an 
overall strategy to guide these efforts and provides a long-
term planning context in which the nature of both the 
challenges and the opportunities for advanced technologies are 
considered.
    I thank you for your kind attention. I will, of course, be 
delighted to answer any questions you may have.
    [The prepared statement of Mr. Eule follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Tom Davis. Thank you very much.
    Mr. Stephenson.

                STATEMENT OF JOHN B. STEPHENSON

    Mr. Stephenson. Mr. Chairman, thank you for inviting GAO to 
testify today on our report issued last year regarding Federal 
funding for climate research.
    As you know, in 1992 the United States ratified the U.N. 
Framework Convention on Climate Change, which has as its 
objective the stabilization of greenhouse gas concentrations in 
the Earth's atmosphere but does not impose specific goals or 
timetables forlimiting emissions. Since that time, 14 Federal 
agencies have provided billions of dollars for climate change 
activities.
    OMB, at the direction of Congress, annually reports on 
expenditures for these activities in four broad categories: 
one, science, which includes research and monitoring to better 
understand climate change; two, technology, which is the 
subject of today's hearing, which includes the research, 
development, and deployment of technologies to reduce 
greenhouse gas emissions or increase energy efficiency; three, 
international assistance, which helps developing countries to 
address climate change; and, four, tax expenditures which are 
Federal income tax provisions that grant preferential tax 
treatment to encourage emission reductions such as renewable 
energy uses.
    The climate change science program, which is a multi-agency 
coordination body, also reports on the science portion of these 
expenditures.
    In analyzing overall Federal climate change funding, we 
found that OMB and CCSP reported that climate change budget 
authority more than doubled from $2.4 billion in 1993 to $5.1 
billion in 2004, with almost all of this increase in terms of 
real or inflation-adjusted terms occurring in technology; 
however, it was difficult for us to determine if this was real 
or a definitional increase because of numerous changes in 
reporting format from year to year without adequate 
explanation.
    We found that in some cases OMB and/or CCSP added new 
accounts not previously included and expanded the definitions 
of some accounts to include more activities. For example, $152 
million NASA research program to reduce emissions in aircraft 
was included for the first time in 2003. In addition, we found 
that over 50 percent of the increase in technology funding 
between 2002 and 2003 was the result of DOE expanding the 
definition of two accounts to include over $500 million in 
nuclear research. OMB explained this difference by stating that 
the prior administration did not consider nuclear programs to 
be part of its activities related to climate change, but that 
the current administration does, as explained in yesterday's 
released strategic plan on climate change technology.
    Also, the merging of direct research, that specifically for 
climate change, and indirect research, that research primarily 
for another purpose with residual benefits in climate change, 
in the 2002 through 2004 reports in our opinion made the 
reports more confusing and less useful. For example, this 
merging, in effect, caused carbon sequestration research, a 
direct activity, and grants to help low-income families 
weatherize their homes, an indirect activity, appear in the 
same technology reporting category at the summary level.
    In our report, we, among other things, recommended that OMB 
and CCSP use the same format for presenting data in its annual 
reports, explain changes in report content or format when they 
are introduced, and provide and maintain a crosswalk comparing 
new and old report structures. OMB and CCSP generally agreed 
with our recommendations and have tried to incorporate them 
into this year's climate change expenditure reports.
    However, OMB told us during the course of our work that the 
short time line required by Congress for completing that report 
within 60 days of the budget submission limits its ability to 
fully analyze data submitted by agencies. As a result, OMB must 
rely on funding estimates quickly developed by each agency in 
order to produce the report within a specified time.
    It seemed to us that the fact that we don't yet have a 
clear explanation and understanding of the Federal Government's 
$5 billion annual investment climate change portfolio and the 
fact that it is built from the bottom up instead of the top 
down is very relevant to the purposes of this hearing. We at 
GAO are strong proponents of setting goals, measuring 
performance against those goals, and reporting publicly on 
progress.
    We believe that this framework is the cornerstone of good 
program management and sound investment decisions. Although we 
have not formally reviewed either the CCSP or the CCTP 
strategic plans, we believe that as an implementation of these 
plans move forward there needs to be clearly articulated 
relationship between the Government's $5 billion investment 
portfolio and the goals of both programs. In addition, there 
needs to be a mechanism to ensure that agency investment 
decisions directly relate to the goals and priorities expressed 
in the plans.
    Mr. Chairman, that concludes the summary of my statement 
and I will be happy to answer any questions that you or members 
of the committees may have.
    [The prepared statement of Mr. Stephenson follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Tom Davis. Let me start quickly. What I will do is 
get to questions, Mr. Waxman, and then we are going to have to 
recess to go over for three votes.
    Mr. Eule, the Federal Government spends about $3 billion on 
climate change technology research. Isn't that about it? Which 
I might add is the same amount of money that British business 
mogul Richard Branson on Thursday announced, $3 billion that he 
was going to put in personally to combat global warming over 
the next decade. But does CCTP play any role in determining how 
those funds are used?
    Mr. Eule. Thank you, Mr. Chairman. Yes, good question. We 
have set up a process in the strategic plan. We have a process 
in the strategic plan and some mechanisms to do that. CCTP has 
a series of working groups, each of which is matched to one of 
the strategic goals in the plan, so we have a working group on 
reducing emissions and--
    Chairman Tom Davis. So you are advisory, but you play a 
role? Is that it?
    Mr. Eule. We are advisory. We have working groups that are 
the people that actually have influence on agency budgets. We 
also have outside experts come in and provide advice. And we 
also work through the management structure that the 
administration set up through the Cabinet-level committee on 
climate change science and technology integration and, more 
directly, through the box under that we call the blue box, 
which is the deputy level structure.
    Chairman Tom Davis. But the plan that was released 
yesterday does not provide clear criteria for determining which 
program to fund, when to fund them, or how much funding to 
provide; isn't that right?
    Mr. Eule. It provides a process to do that.
    Chairman Tom Davis. Right. Not a plan, but a process. Who 
has the ultimate power to determine that?
    Mr. Eule. The agency--
    Chairman Tom Davis. You have a process, but ultimately who 
has the say-so? I mean, you get input into it, but CCTP is not 
the ultimate decisionmaker, right?
    Mr. Eule. No, CCTP isn't designed to be the ultimate 
arbitrator; it is designed to coordinate and to help prioritize 
the budgets that the agencies produce, with input, obviously, 
from the Executive Office of the President.
    Chairman Tom Davis. Do you think it would be helpful to 
have like an ARPA for climate change?
    Mr. Eule. Well, I think the Department's position on ARPA 
is clear. We think it would take funds away from other 
programs. But I think in the case of climate change what you 
have to consider is that climate change isn't just about 
energy. Energy is a big part of that, obviously. About four-
fifths of all greenhouse gas emissions are energy related. But 
there are other aspects of climate change technology, and 
expertise is in other agencies. For example, our expertise on 
non-CO2 gas is at the Environmental Protection Agency. Our 
expertise on measuring and monitoring is in NASA. Basic 
research, Department of Energy.
    Chairman Tom Davis. I guess the ultimate question is, on an 
issue of this magnitude are we better off having this expertise 
dispersed across different agencies with no sole authority, or 
are you better off having it under one roof with a strong focus 
and decisionmaking tree that is clear-cut? I think right now it 
tends to be rather process oriented.
    Mr. Eule. Well, we think in the strategic plan we have set 
out a process that can do that, and we have set out some goals, 
long-term goals that will provide that. So I think we are 
satisfied with the plan that we have. We think it is a good 
structure, one that is workable through the management 
structure that the administration has developed.
    Chairman Tom Davis. Mr. Stephenson, how much exploratory 
technology and research is being conducted by the Federal 
Government?
    Mr. Stephenson. I don't know the answer in total.
    Chairman Tom Davis. OK. Can you get back to us on that?
    Mr. Stephenson. Yes, I will.
    Chairman Tom Davis. We want to put something in the record.
    How does the administration identify spending on climate 
change related R&D?
    Mr. Stephenson. It is a matter of looking at the individual 
agency budget submissions and accounts and rolling them up. I 
think the press release yesterday from the Department of Energy 
announcing the release of the plan summarizes it best in that 
it says that the plan organizes, not directs, not manages, but 
organizes roughly $3 billion in Federal spending.
    Chairman Tom Davis. Do they differentiate between direct 
spending, such as polar ice cap research versus indirect 
spending, which would be, like, R&D with just kind of an 
ancillary climate change benefit?
    Mr. Stephenson. No. There are no clear definitions to 
distinguish between direct and indirect climate change funding. 
It all gets merged at the summary level in the reporting.
    Chairman Tom Davis. How comfortable are you with OMB's 
overall climate funding trends? It seems to me there are a lot 
of questions whether OMB's data is comparable over time.
    Mr. Stephenson. It was very hard for us to tell whether the 
increases were due to inclusion of new programs or redefinition 
of existing programs, so we can't answer that question 
concretely, although most of the real increase, as I said, 
occurred in the technology portion of the climate change 
report.
    Chairman Tom Davis. Has OMB agreed to all of your 
substantive recommendations, or have they just agreed to the 
suggested changes to report content format?
    Mr. Stephenson. They have essentially agreed with all of 
the recommendations, although we haven't looked at this year's 
report to see how effectively they have been implemented. Our 
recommendations were more to get additional clarity and 
explanation in the reports so that they are more useful.
    Chairman Tom Davis. OK.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Eule, in a hearing on climate change in July, Mr. 
Connaughton, the chairman of the President's Council on 
Environmental Quality, insisted that the administration is 
taking meaningful action to address global warming, and you 
have tried to make the same argument here today.
    There are some basic facts we must recognize if we want to 
avoid dangerous global warming. One, we can't avoid dangerous 
global warming unless we sharply cut emissions of global 
warming pollution. Two, sharp cuts in emissions require 
significant changes in energy production, energy use, 
deforestation, and other activities.
    Three, as eminent climate scientists such as NASA's Dr. 
James Hansen keep telling us, we must start now. We have about 
a 10-year window to start controlling emissions and we need to 
achieve large reductions by 2050 or the planet will be locked 
into irreversible dangerous global warming. Four, as the single 
largest emitter of global warming pollution and the wealthiest 
country in the world, this isn't going to happen without U.S. 
leadership.
    The administration's climate change goal allows U.S. 
emissions to rise by 14 percent by 2012. Achieving that goal 
just locks us in more to do later. To be blunt, the 
administration's claim of meaningful action are simply 
nonsense, and the so-called CCTP strategic plan is simply a 
longer version of the same story--lots of talk but no action 
and no results.
    Mr. Eule, the ultimate goal we must achieve is to stabilize 
the level of greenhouse gases in the atmosphere at a safe 
level. Does your plan set a goal, any goal, for stabilizing the 
level of greenhouse gases in the atmosphere?
    Mr. Eule. The plan does not set a level. It was never 
intended to be a mitigation plan. It was always intended to be 
a strategic plan to develop cost-effective options that could, 
over the long run, contribute to mitigating climate change.
    Mr. Waxman. In fact, your range of stabilization levels 
include very high levels that would allow devastating global 
warming to occur, such as temperatures that would melt 
Greenland, raise sea levels by 20 feet. If we don't pick a goal 
and the right goal, we may be aiming for disaster.
    You say your plan is not to achieve a goal but to give some 
ideas for technology. In order to achieve stabilization we need 
to reduce our emissions. Does your plan set any quantified goal 
or timing for reducing U.S. emissions of global warming 
pollution?
    Mr. Eule. The plan in the summary chapter, chapter 10, does 
lay out some broad overall goals for the mitigation potentials 
that we think the technologies in the program could achieve. We 
have looked at these potentials not only in terms of the amount 
of carbon or amount of greenhouse gases they could mitigate, 
but also in terms of the timing of these technologies, when 
they would be available. So while we don't set a goal, we have 
done scenarios analyses to look at different technology mixes 
and see how they could contribute to mitigating greenhouse gas 
emissions across a range of different scenarios.
    Mr. Waxman. Well, as I see it you have a 100-year plan with 
no goal for where we want to end up and no time line for 
getting there. The plan also fails to address how we will get 
these new technologies into the marketplace. If people don't 
use the technologies, we are not going to avoid any greenhouse 
gas pollution.
    Mr. Eule, I want to ask about the scenarios modeled in this 
report. The report relies on modeling to determine when the 
technologies could be deployed, and, even though you don't 
mention this in the report, that modeling assumes that there is 
a price on emissions that drives the use of these technologies; 
is that right?
    Mr. Eule. It doesn't assume a price, it assumes carbon 
constraints.
    Mr. Waxman. Well, even though your plan assumes that 
something beyond research is necessary for these technologies 
to be adopted, the Bush administration continues to strongly 
oppose any policy that would actually constrain emissions. The 
CBO pointed out in their report that research and development 
alone won't be cost effective or any way effective to reduce 
global warming. Dr. Kammen will testify today technologies do 
not adopt themselves.
    There aren't any clear action items in your plan to 
implement, but even if it was faithfully followed over the 
coming decades, global warming pollution would continue to rise 
dramatically and global warming would reach dangerous, 
irreversible levels. A so-called strategic plan that utterly 
fails to address the problem isn't strategic, and I have to 
tell you it is not much of a plan, either.
    Thank you, Mr. Chairman.
    Mr. Bilbray [presiding]. Thank you. We are going to have to 
adjourn until the end of this vote. The chairman said he will 
return immediately after that.
    [Recess.]
    Chairman Tom Davis [presiding]. Thank you for bearing with 
us. We had hoped to get you through.
    Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman.
    This question can be for either one of you: I was sort of 
taken by a comment by one of the Members, about the issue of 
transferring generation facilities from heavy oil and coal over 
to natural gases being a net benefit, but that doesn't reflect 
a consideration of a new facet of this whole issue that we are 
not talking very much about. The issue that I would like to 
ask: are you including in your strategies consideration for 
global dimming? And is global dimming being accepted as being 
one of the thresholds we need to consider when we are talking 
about global change issues?
    Mr. Stephenson. That is really a DOE issue.
    Mr. Eule. Are you talking geo-engineering?
    Mr. Bilbray. No. I am talking about the effect of 
particulates on the global warming issue and the benefits of 
particulates and what is called global dimming, the shadowing 
effect.
    Mr. Eule. I think that would be an area of research that 
would probably be done under the climate change science 
probably but not the climate change technology.
    Mr. Bilbray. OK.
    Mr. Eule. If I could get to your issue about coal 
switching, fuel switching from coal to natural gas, when we 
look at these technologies, the administration's climate change 
plan also looks at energy security and air pollution and 
climate change, so we combine the two. We look at it in a 
context, so, I think from an energy security issue, simple fuel 
switching from coal to natural gas, you also have to ask the 
question what impact is that going to have on your energy 
security, as well. So I think what we do was we take a more 
holistic approach in how we approach these technologies and 
start to consider these other factors.
    Mr. Bilbray. OK. An editorial note; North America still has 
substantial natural gas reserves. This is a big issue.
    Mr. Eule. It does, yes.
    Mr. Bilbray. The other issue is, are we including--and I 
don't know if it is your department or should be the next 
panel--the issue of bioconversion and how much we are focusing 
on genetic alteration in our biofuel strategy. Arrangement we 
specifically including in our strategy the concept that we may 
want to be talking about bacterium and enzymes that have been 
genetically altered to be able to produce not only the fuel we 
want but also in a manner that is cost effective.
    Mr. Eule. Absolutely. The Department of Energy has just 
announced recently that it was seeking $250 million to fund 
some centers that would look at those sorts of issues, using 
biotechnology not only to improve the feed stocks but also 
using biotechnology to improve the conversion process.
    Currently we make ethanol from cornstarch, essentially, the 
sugars that are in the ear of the corn. We are working now on 
what you call a cellulosic technology where we construct these 
from other parts of the plant. We think our Office of Science 
is working it out. We think there is tremendous potential in 
biotechnology to make that process much more efficient and thus 
make bio-refining much more cost effective, so it is something 
we are looking at very closely.
    Mr. Bilbray. The issue of getting away from virgin products 
and going to ``conversion'' of trash products I think has just 
been grossly underestimated how important that is to make it 
work. A lot of people forget that gasoline was a trash product. 
It was a leftover trash from kerosene production. That is the 
only reason why we are driving around with gasoline now, not 
because gasoline was a secret formula that was developed 
somewhere down the line.
    Mr. Eule. A couple of years ago USDA and DOE did a joint 
study called the Billion Ton Study to take a look at the amount 
of biomass that is available in the United States, and it came 
to the conclusion there was about 1.3 billion tons of biomass 
available in the United States annually on a sustainable basis. 
That is a huge resource, so if we can develop a cellulosic 
technology to tap into that resource we can significantly 
reduce the amount of gasoline that we use in our transportation 
fuels, for example.
    Mr. Bilbray. Go from that to the other end of the spectrum, 
the adaptation technology and theories or whatever. We have 
been getting reports that basically the Federal Government is 
walking away from adaptation concepts or technology. Where are 
we going with the whole concept of that other end of the 
spectrum?
    Mr. Eule. Adaptation?
    Mr. Bilbray. Yes.
    Mr. Eule. Adaptation is an issue that is handled in a 
number of agencies. CCSP, for example, climate change science 
program, does take a look at adaptation. Really what we need to 
help us with adaptation is regional level models that have much 
more specificity than they do now. We have made a great deal of 
progress in those models. More needs to be done.
    But there are some what we call synthesis and exception 
products coming out of the climate change science program. They 
are looking at those sorts of issues. One that has relevance 
for the Department of Energy is a synthesis and exception 
product on the impact of climate change on energy production 
and use. So those sorts of things are being considered through 
the climate change science program. EPA has programs, as well 
as the Department of Interior and others.
    Mr. Bilbray. Mr. Chairman, I apologize, but there is one 
very simple but very big question I have that I don't think our 
colleagues on the other side of the aisle will bring up. Is 
there one major industrial nation in the world that has 
substantially reduced greenhouse gases? And, if there is, what 
technology did they use to do it?
    Mr. Eule. That is an excellent question and the answer 
quite simply is no. We have taken a look at data that EPA 
reports to the U.N. Framework Convention, other countries 
report this data, as well, and if you take a look at the 
numbers for 2000 to 2004 emissions growth in the United States 
was 1.3 percent at a time when the economy grew by about 9.5 
percent and population expanded by about 4 percent. The EU 15, 
which is essentially Western Europe, their emissions grew by 
2.4 percent, so they performed worse than the United States. So 
I don't bring that up to denigrate all the things that are 
going on in the EU. They are all helpful. But it just goes to 
point out that no country is significantly cutting its 
emissions at this point.
    Mr. Bilbray. Who do you think is doing the best?
    Mr. Eule. Well, I have a chart here. I could look. The 
Japanese are doing quite well. But, you know, we have heard a 
lot about cap in trade. I would point out the Japanese are 
doing well but they don't have a cap in trade policy in place. 
The Canadians don't have a cap in trade and they are not doing 
as well as the United States. So there is a mix but everybody 
is pretty much in the same place as far as emissions go.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Chairman Tom Davis. I want to thank this panel. Thank you 
very much. This has been very helpful for us as we move 
forward. Thank you.
    We will take a minute break and get our next panel.
    We have our next panel: Mr. Lee Lane, the executive 
director of the Climate Policy Center; Mr. Richard Van Atta, 
the senior research analyst at the Institute for Defense 
Analyses; Dr. Martin Hoffert, emeritus professor, New York 
University; Robert Socolow, the former director, Center for 
Energy and Environmental Studies at Princeton University; and 
Dr. Daniel Kammen, the director of Renewable and Appropriate 
Energy Laboratory at the University of California at Berkeley.
    It is our policy to swear you in.
    Dr. Van Atta, your daughter is where now in school?
    Mr. Van Atta. UVA.
    Chairman Tom Davis. Excellent.
    Mr. Van Atta. Thank you.
    Chairman Tom Davis. Excellent.
    Mr. Van Atta. Your remarks about Jeb Stuart are very well 
taken.
    Chairman Tom Davis. I knew you would appreciate it.
    Mr. Van Atta. It is a wonderful model for people to look at 
in terms of how a school has been resuscitated and turned into 
a model.
    Chairman Tom Davis. Yes. Excellent.
    Mr. Van Atta. It is a real asset for our area.
    Chairman Tom Davis. Well, I had two through there. One, 
Shelley, is at William and Mary, and Pamela is at Swarthmore, 
so they have done well.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Lane, we will start with you and we 
will move on down. There is a light in front of you that is 
green when it starts, then it turns orange after 4 minutes and 
red after 5, but we are going to try to keep within that 
because your entire statement is part of the record. Thank you.

  STATEMENTS OF LEE LANE, EXECUTIVE DIRECTOR, CLIMATE POLICY 
 CENTER; RICHARD VAN ATTA, SENIOR RESEARCH ANALYST, INSTITUTE 
 FOR DEFENSE ANALYSES; MARTIN HOFFERT, EMERITUS PROFESSOR, NEW 
 YORK UNIVERSITY; ROBERT SOCOLOW, FORMER DIRECTOR, CENTER FOR 
  ENERGY AND ENVIRONMENTAL STUDIES, PRINCETON UNIVERSITY; AND 
   DANIEL KAMMEN, DIRECTOR, RENEWABLE AND APPROPRIATE ENERGY 
        LABORATORY, UNIVERSITY OF CALIFORNIA AT BERKELEY

                     STATEMENT OF LEE LANE

    Mr. Lane. Thanks a lot. I really appreciate the opportunity 
to appear here this afternoon, and I also really want to thank 
both you and the committee, as a whole, for conducting this 
hearing. I think this subject is one of tremendous importance. 
One of the attachments to my written statement is an editorial 
from the current issue of the Journal of Nature pointing out 
the enormous importance of government-funded R&D as a potential 
source of solutions to the problem of climate change.
    As soon as we recognize that we really need government-
funded R&D, in particular, it raises the question that the 
record of the Federal Government on energy R&D has been 
distinctly mixed, and so we really face a serious set of 
questions about how to do R&D to solve our climate problems in 
such a way that it actually is likely to get the results that 
we are looking for. It is a very hard, very big problem, 
climate change, as you know, so it is a very difficult problem 
and I think you are really to be commended for asking some of 
the questions about how to organize an R&D effort in such a way 
that it really works.
    We have a very distinguished panel of experts here and they 
are going to discuss, I think, several of them, some of the 
more global aspects of the issue of how to do R&D, but I wanted 
to open my remarks by focusing on what I think are three pretty 
simple initial steps that could really get us started, things 
that are not necessarily global in nature but things that 
would, if we could do them, would really have an impact in 
enhancing the cost effectiveness of our Federal climate-related 
R&D effort.
    The first of those, which is described in attachment B in 
my statement, would be to create a focused exploratory research 
program directed at finding new climate technology solutions. 
Several of us, four very distinguished scientists, including 
Dr. Hoffert and several others, and me, who is not a scientist 
at all, put together this straw man proposal describing a 
possible way of organizing an exploratory R&D program aimed at 
climate solutions.
    I think that the two problems that such a program could 
solve are, first, that it could reduce the rigidity of the 
Federal climate change technology program. Bureaucracies tend 
to perpetuate themselves. All bureaucracies do that. It makes 
them rigid. It makes them slow to change. The program as we 
have designed it would go outside of the bureaucracy to open up 
the search for new ideas just as broadly as possible, and 
hopefully in doing that would encourage the flow of new ideas 
into our R&D portfolio.
    The second thing it would do would be to counteract some of 
the tendency toward risk averseness, toward over-caution in the 
current portfolio of the climate change technology program. 
This is a problem that has been noted by some of DOE's own 
reviews of the climate change technology program.
    We think that the proposal we have sketched out offers a 
possible way of counteracting both of those problems with the 
existing program. Our proposal for doing this--and there are 
other ways you could do it, but our proposal is to create an 
autonomous, not-for-profit Government-funded corporation to 
organize the exploratory R&D effort. We think it is better to 
create a corporation outside of the DOE in order to make sure 
that we don't simply perpetuate the same problems that exist 
within the existing organization.
    Your opening remarks alluded to one of my other key points 
here, which is the need for expanding the R&D portfolio of DOE 
to include geo-engineering and adaptation in the CCTP. I think 
those are extremely important points. We could find ourselves 
with nasty surprises, and it would be much better to have done 
the research on those things beforehand.
    I guess the third thing I will say, just in closing, is 
that it really is important to give DOE the planning staff of 
CCTP the resources that they need to do a better job of 
planning in the future. They have actually done, I think, 
yeoman's service given their resource limitations, and if we 
want them to do better we have to give them the resources to do 
that.
    I conclude by just saying again I think that this hearing 
is enormously valuable. I thank you very much for your 
initiative in organizing it, and certainly the Climate Policy 
Center will do whatever we can to be helpful.
    [The prepared statement of Mr. Lane follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Tom Davis. Thank you very much. That is very 
helpful.
    Dr. Van Atta, welcome and thank you.

                 STATEMENT OF RICHARD VAN ATTA

    Mr. Van Atta. I am not an energy specialist. My background 
is Defense and Defense research. I spent a fair amount of my 
career looking at emerging technologies and how they are made 
to emerge, and I teach a class at Georgetown on emerging 
technologies and security, and I emphasize the fact that 
emerging technologies are made to emerge. The question is the 
processes and the means by which you do that.
    DARPA is a unique example of an entity that was created 
with that purpose in mind, and I think it is important to look 
at it in terms of why it succeeded and what made it succeed. In 
my testimony, which I will read portions of here, I emphasize 
that the research that DARPA does is unique and different, and 
is purposefully so. The organization, itself, is designed 
explicitly to allow it to do this unique and different type of 
research, and it has cultural features within its organization 
and management style that allow it to do that.
    In the testimony I talk about the DARPA model and I also 
ask the question of which DARPA model, because DARPA has done 
many things in many different ways. It has been adaptive. It is 
very malleable. One cannot just say there is a DARPA and that 
we are going to take that and implant it some place else. You 
have to understand what it took to make it do what it could do 
and why it was able to change in those very effective ways. So 
it evolved over time and it has many successes, and those 
successes, in fact, were different because they were dealing 
with different problems.
    We have to understand the way in which those successes were 
made and what it took to make those successful, and I will talk 
about a couple of examples of that.
    DARPA's program managers are the core. They are, in fact, 
almost individual entrepreneurs. They are encouraged to 
challenge existing approaches. In the case of Defense, for war 
fighting and to seek results rather than just explore ideas. In 
addition to supporting technology and the components of the 
technology development, DARPA has also funded integration of 
large-scale systems demonstrations to look into what we would 
call disruptive capabilities.
    There is a high-risk, high-payoff motif for DARPA that is a 
set of organizational and operational characteristics that 
include its relatively small size, its lean, non-bureaucratic 
structure, its focus on potentially change-state technologies, 
its highly flexible and adaptive research programs, but what is 
most important at the outset is that, in contrast to the 
existing Defense research environment, ARPA was manifestly 
different. It did not have labs. It does not focus on existing 
requirements. It is separate from any operational organization 
elements. What is explicit is that its charter is to be 
different so it could do fundamentally different things that 
had not been done in a research environment.
    So when one looks at an energy ARPA or climate change ARPA, 
the question is what are the things that it is trying to do 
that are different and how do you set up an organization to do 
that.
    DARPA was established as a research and development 
organization to assure the United States maintained the lead in 
the state-of-the-art technology for military requirements and 
prevent technology surprise. As one then looks at the 
characteristics of how it did that, first of all it was 
independent of other organizations.
    Second of all, it is lean and agile. It was risk-taking and 
tolerant of failure, open to learning. You have to have a 
specific kind of research environment and organizational 
structure and a way in which your link to the rest of the 
organization will allow you to do that.
    The program managers are, in fact, the technical champions 
who conceive their own programs and have to then sell those 
programs within the DARPA environment. The coin of the realm in 
DARPA is promising ideas. Gaining notion is not that the idea 
is well proven, but that it has high prospects for making a 
difference on the problem they are trying to solve. So you have 
to have an organization and culture that focuses on those kinds 
of innovations and those kind of directions.
    In my testimony I talk a lot about DARPA's successes, and I 
don't have time to go into those here, but I will give you some 
key what I consider to be elements of that success.
    First of all, focus on creating surprise, creating 
difference, not avoiding them.
    Second, build what I call communities of change state 
advocates. One of the key things that is unique to DARPA is it 
doesn't create and do its own research, it incentivizes and 
creates a community of people to do that. If one talks about 
the current structure of DOE in the national labs, they do 
their own work with their own capabilities within their own 
operations. What DARPA did is it found the people who could do 
that. It developed the community. It found the new ideas out 
there and brought them together in a coherent manner.
    The third element is to find challenges, develop solution 
concepts, and then demonstrate them. We can show examples of 
that in my testimony.
    Finally, I would say if one were to ask the question what 
were the key things about climate change that relate to DARPA 
and the DARPA model, the first thing I would say is you have to 
understand the imperative that drove the creation of DARPA in 
terms of national security, the Sputnik issue, and ask the 
question: do we have the same imperative and understanding of 
imperative to make an ARPA-like organization work elsewhere?
    You also have to have the understanding that it will work 
because of the protection, oversight, and interest of the 
Secretary of Defense and even the President to make it happen. 
Without that, just naming something ARPA will not solve your 
problem for you.
    Finally, I would say you need to deal with not only 
leadership support but the issue of congressional oversight. 
ARPA has benefited from the fact it has a simple oversight 
structure, it is not being managed by multiple congressional 
committees simultaneously, and with that kind of multiple 
meddling you are not going to get anywhere. You have to deal 
with existing lab structure. An ARPA-like organization cannot 
succeed if, in fact, it was supposed to support and integrate 
all those labs and use that as its basis of success, and then 
they have to deal with the incumbent business interests.
    One of the key things, examples of DARPA, was how it 
created information technology capability despite the fact that 
IBM dominated all of the information technology development at 
the time that it created that very successful program, but it 
did it by not having to directly address but create 
alternatives to those incumbent capabilities.
    So my suggestion is that there is value in an ARPA energy 
that could be created, but if you are going to do that you have 
to understand that first of all you need to have that 
galvanized focus, you need to have an approach that is allowed 
to be independent, and it has to have top-level leadership if 
it is going to succeed.
    Thank you.
    [The prepared statement of Mr. Van Atta follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Tom Davis. Thank you very much.
    Dr. Hoffert, thanks for being here.

                  STATEMENT OF MARTIN HOFFERT

    Mr. Hoffert. Thank you, Mr. Chairman. You may have to bear 
with me. I have a bit of a cold.
    What I would like to do is outline some of the specific 
attributes of the climate energy problem that make it a 
candidate for ARPA or DARPA-like R&D, but I would also like to 
distinguish between several contexts which are being used 
interchangeably.
    A Manhattan Project or an Apollo Program Project is not the 
same as a DARPA-type organization, and neither is an 
exploratory research program, so let me just discuss what I 
think is the objective problem, the objective climate energy 
problem.
    What we are faced with is a kind of existential challenge 
to our high-technology civilization. Almost universally all the 
countries of the world are in favor of continued economic 
growth, roughly at 2 or 3 percent a year. That is built into 
all of the models. At the same time, those of us who have 
worked on the climate problem--and that includes myself.
    I have worked on this for almost 30 years. I was, in fact, 
a colleague of Jim Hansen's at the Institute for Space Studies 
back in the 1970's. We have, over time, evolved a pretty good 
understanding quantitatively of this issue, and if we were to 
say that we don't want the planet to warm more than 2 or 2\1/2\ 
degrees, which might lead to irreversible melting of the ice 
caps, and at the same time require that economic growth 
continue at 2 or 3 percent a year--and that seems to be what 
everyone wants to do--that imposes mathematical constraints on 
not only the amount of emissions that we would be allowed to 
emit but on the amount of energy that we would have to either 
produce by alternate energy technologies that don't emit CO2 or 
energy demand reducing technologies that would give us the same 
end products but with less input.
    We have written several papers on this. The first paper we 
wrote was in 1998 where we first floated the idea of an Apollo 
or a Manhattan Project for energy. The week after that paper 
appeared in Nature, the editorial writers of Nature said this 
is really a bad idea because we know that the Jimmy Carter 
energy program had a lot of boondoggles, it wasn't really 
effective, and researcher is no substitute for political 
action. I want to come back to that in a minute, but because it 
is so important I must be sure that I say this at the beginning 
and don't forget.
    There is a perception in some quarters that research can be 
used as an alternative to prompt implementation of things that 
we know how to do right now. I want to as strongly as possible 
say that is not the case. I favor a metaphor, a sort of World 
War II type metaphor. I think the problem we are facing is at 
least as challenging as winning the second world war.
    We didn't stop fighting the second World War while the 
Manhattan Project was going on. We did the Manhattan Project, 
but by the time the war ended it did deliver a remarkable piece 
of technology that managed to change the shape of the world for 
the next 50 years, for better or for worse.
    So I think that, although I won't refer to this any more, 
it is very clear that whatever we do on the R&D front has to be 
done in parallel with implementing everything that we have on 
the shelf right now.
    Having said that, let me go to some specific problems that 
I think could benefit from an intense R&D of--I believe that 
the DARPA model might be very valuable in some of these 
problems.
    What do we actually have in the coffers now to provide the 
levels of energy that we need to run the world, which is 
something like 300 to 400 percent of the energy that we are 
using right now? In order to stabilize at 2 degrees warming or 
less, we are going to have to have some energy source X if we 
are going to do it with supply that can provide between 100--or 
a combination of sources--between 100 and 300 percent of all 
the energy that we use now without putting CO2 in the 
atmosphere.
    To put this into context, Fermi's first nuclear reactor in 
1942 was farther in time than 2050 is from us, and roughly 5 
percent of our primary power comes from nuclear power. So 
whatever this energy source is, it will have to grow something 
like 20 to 60 times faster than the last revolutionary energy 
source we had.
    That is an immense challenge, if you put it in that 
framework. There are other ways of stating it. My colleague Rob 
Socolow uses the metaphor of wedges. But it is a major, major 
job and it is not going to get done, in my opinion, unless we 
have a targeted program to develop three classes of technology, 
each one of which has a number of variants.
    The first class is coal, with carbon sequestration or 
carbon capture. There is a lot of coal, and if it weren't for 
global warming this would really be a problem for the 22nd 
century or beyond. We can make synthetic fuels out of coal, but 
CO2 and the climate problem has moved it to the agenda where we 
have to start working on this right now. In fact, 850 new coal-
fired power plants are being built right now by the United 
States, China, and India, and the emissions from those plants 
are going to overwhelm Kyoto emission reductions by a factor of 
five.
    The U.S.'s response to climate change, as put forth by 
Negotiator Harlan Watson at the recent round of Kyoto 
discussions in Montreal, was something called future gen, where 
DOE is going to build a plant that will make hydrogen and 
electricity from coal gassification. We don't even have a 
location for that plant, and the contribution that we can 
expect from that technology is very small compared to what we 
are already doing. So, although coal is important, we are 
rapidly building precisely the wrong infrastructure marching in 
the wrong direction, tying up capital for 50 to 75 years.
    The second general category are safe or so-called green 
nuclear reactors. Nuclear power has come a long way, although 
we haven't in this country built a new reactor for at least 30 
years. We need to come to grips with the issue of what it would 
take to generate nuclear power sustainably, and it is not clear 
that once the reactor is burning the U235 isotope can do it.
    That is less than 5 percent of natural uranium. There are 
alternative ideas that involve breeders that may involve using 
folium. Those were always parts of the discussion back in the 
1970's, but the institutional memory of that has dimmed, and I 
believe we are far too modest in our plans for nuclear and 
could really use some innovative ideas to drive us toward a 
sustainable energy source.
    The third category and the one that I am most identified 
with and favor the most is renewable energy, primarily solar 
and wind energy. These energy sources are low intensity, 
intermittent, and widely distributed. If we wanted to use these 
sources, if we wanted to get, let's say, one-third of our 
primary power from renewables, one-third from green nukes, and 
one-third from coal sequestration, we really need to invent and 
deploy entirely new systems for transmitting and storing this 
energy. Indeed, the transmission and the storage of the 
renewable energy may become the cost pacer in the 
implementation of renewable energy beyond the point where 
renewables can penetrate as a niche market. I think that is 
another area that could benefit from a DARPA-like program.
    This emphasis on technology, which in no way should be 
construed as an alternative to prompt action, I also think is a 
way that we might entrain a bipartisan support for this. I had 
the pleasure yesterday of appearing before a different 
committee, the House Committee on Science, and Congressman 
Rohrabacher was there and made some remarks to the effect that 
he doesn't accept the theory of global warming, which I know, 
and that was fine.
    But I also know Congressman Rohrabacher to be a proponent 
of space solar power, solar power satellites where one collects 
solar energy in Earth orbit and beams it to the Earth. He has 
given many talks in conferences on this that I have attended. 
On this score, we are technologically simpatico. I think it 
would be very important to have an R&D program in space solar 
power. After all, the world is spending $13 billion to build an 
experimental thermonuclear reactor that isn't even going to 
generate any power.
    There is essentially zero funding for space solar power 
right now, although we did have a program in the 1970's. It is 
another discussion, but the one problem is that, if that 
technology or other related technologies like global super-
conducting transmission lines, auto gyros that might be 
suspended in the upper troposphere which have the potential of 
providing all the electricity on Earth are not being supported 
because there is no champion within the Government agencies, 
particularly the Department of Energy. How are we ever going to 
start working on those ideas?
    I think that I would imagine a sequence of events in which 
we might start with a relatively modest exploratory research 
technology program that would examine the feasibility of these 
ideas and start looking into experiments to test them. That 
might be eventually correlated with an ARPA-E program and, if 
it looks like it is very promising, it might transfer 
eventually to the Department of Energy.
    I don't think I have very much time left but I have one 
more point that I think is vitally important. Many Americans 
believe that the job of the Department of Energy is to develop 
alternative energy sources that would be sustainable and allow 
us to live harmoniously with nature and yet retain our high-
tech civilization. That is not the job, as you well know. DOE 
has two jobs, one is called stockpile stewardship, which means 
to make sure that the nuclear weapons we have will actually 
work if we ever had to use them, and the other is toxic waste 
cleanup. I put it to the committee that the Department of 
Energy, itself, should be reorganized. This is not such a far-
out idea.
    As you may well know, NASA has recently been reorganized 
and tasked with the mission of going back to the moon and going 
to Mars, perhaps without adequate funding but certainly heads 
rolled and there were internal reorganizations. I don't bring 
this up because I necessarily agree with that direction. In 
fact, I am quite unhappy about the loss of monitoring programs 
from space that have applicability to climate change. But I 
bring it up because it is not impossible for a Government 
agency to be reorganized and to be retasked, and I cannot think 
of a more important task for this century, a more important 
organizing principle than developing sustainable energy sources 
in harmony with natural ecosystems.
    Thank you.
    [The prepared statement of Mr. Hoffert follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Tom Davis. Thank you very much.
    Dr. Socolow, thank you for being with us.

                  STATEMENT OF ROBERT SOCOLOW

    Mr. Socolow. Chairman Davis, ladies and gentlemen, I have 
titled my remarks One Hand Clapping. You have heard a very 
strong case for moving forcefully forward with technological 
responses that address climate change. We need early deployment 
of technologies that we already know are matched to the job and 
we need long-term research to expand the list of options. 
Congressional action is critical in both areas. To accelerate 
the deployment of the technological strategies whose promise is 
already clearly identified, requires price signals for carbon. 
To raise the energy R&D effort to a new level requires greatly 
expanded, durable funding of research with a long time horizon. 
To do one without the other, that is like one hand clapping.
    I want to share with you work that I have done over the 
past 2 years with my ecologist colleague Steve Pacala that has 
added coherence to discussions of climate policy. Please look 
at the figure on the screen. This, by the way, is in the 
Scientific American in September 2006, the current issue. The 
upward trajectory envisions 50 years of inaction while carbon 
dioxide emissions double, followed by aggressive action to hold 
global emissions constant for the following 50 years. Following 
the upward trajectory, the world will find it difficult to 
avoid tripling the preindustrial carbon dioxide concentration 
and a rise in the average surface temperature of roughly 5 
degrees celsius.
    The lower trajectory, the blue one, envisions immediate 
action to hold global emissions constant, followed in half a 
century by a second aggressive program to reduce global 
emissions roughly in half. Following the lower trajectory will 
enable the world to beat doubling--that is, to keep the 
concentration below twice its preindustrial concentration--with 
a rise of roughly 3 degrees.
    The stabilization triangle is that orange and yellow area 
between the two trajectories. You can see that it is divided 
into seven stabilization wedges. A stabilization wedge is a 
strategy that produces a reduction of 1 billion tons of carbon 
and global carbon dioxide emissions 50 years from now relative 
to what would happen in the absence of attention to climate 
problem.
    The size of the world's job for the next 50 years is to 
achieve seven wedges, if we can live with a 3 degree 
temperature increase. If we want to stay below 2 degrees 
celsius, more wedges will be needed.
    I note that the climate change technology plan published 
yesterday, if you look at 2055, also has exactly seven wedges. 
They have 16 minus 9 instead of 14 minus 7, but there is a 
complete agreement about the scale of the job that is 
associated with avoiding a 3 degree temperature rise between 
the DOE and our own analysis.
    In a world in 2056 that emits the same amount of carbon as 
today, the United States will emit less CO2 than today, and the 
trajectory that we will need to follow from here to there must 
depart from its expected business-as-usual trajectory 
immediately and must peak in about a decade, and global 
emissions would peak soon after.
    You must not underestimate the size of the policy 
intervention required to turn U.S. emissions downward. A too-
low price for carbon dioxide emissions will lead industries and 
consumers to treat these expenses as routine costs of business. 
The required price schedule for CO2 emissions must induce 
fundamental changes in the energy system beginning within a 
decade or less. We figure out how much we have to spend by how 
much will create action.
    Pacala and I estimate that the price needed to jump-start 
this transmission is in the ballpark of $100 to $200 per ton of 
carbon, that is to say $25 to $50 per ton of CO2. Arrangements, 
for example, would make it cheaper for new coal plants to 
capture and store CO2 rather than to vent it. Based on its 
carbon content, $100 per ton of carbon is $12 a barrel of oil, 
$60 a ton of coal, $0.25 a gallon of gasoline, and $0.02 per 
kilowatt hour for electricity made from coal.
    Policy-induced scale-up of existing technology can only 
succeed if accompanied by R&D to squeeze down costs and to 
solve the problems that inevitably accompany widespread 
deployment. Along with such programmatic R&D, we will also need 
another kind of research program that we are talking about 
here, more blue sky, a program able to capture the imagination 
and the loyalty of the world's best scientists and engineers 
like the Manhattan Project and the Apollo program. Both of 
those historic programs provided dependable research support, 
which is a necessary condition to induce the most productive 
scientists and engineers, to reorient their research careers, 
and to induce the most ambitious students to adopt these 
retooling scientists and engineers as their mentors.
    But energy research must be international and must heavily 
involve the private sector. Those are two characteristics that 
the Apollo program and the Manhattan program did not share.
    I repeat my main message: we need a serious expansion of 
high-risk R&D, but not only R&D. As Marty Hoffert also said. We 
also need policy that elicits carbon responsive investments by 
industry and carbon-saving practices on the part of consumers. 
R&D in the absence of near-term technology-forcing policy is 
like one hand clapping.
    Thank you.
    [The prepared statement of Mr. Socolow follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Tom Davis. Thank you very much.
    Dr. Kammen.

                   STATEMENT OF DANIEL KAMMEN

    Mr. Kammen. Chairman Davis, thank you very much for the 
opportunity to speak today.
    [Slide presentation.]
    Mr. Kammen. If we could move to the next slide, I share 
many of the points in common with the two previous speakers. I 
would like to highlight a number of what I think are the key 
issues of a serious approach to this problem.
    The first is a major commitment to energy. Leadership and 
sustainability is needed. It is long overdue and it would 
benefit this country. There is a global lack of leadership in 
this area. We would profit financially, as well as 
environmentally, by taking on that role.
    Energy environmental sustainability is a marathon. It is 
not a sprint. Like in a marathon, where your worst of many 
miles times can dramatically affect your performance, cutting 
the funding and cutting support on a given year critically cuts 
programs that are otherwise successful. The best graduate 
students leave fields. The best researchers leave fields. 
Companies don't see it as a serious effort if funding levels 
fluctuate up or down dramatically, so having a sustained, long-
term program that is much wider than just DOE is going to be 
critical to make this happen.
    We have the scientific and technological foundation not 
necessarily to get us all of the way there but to make major 
inroads, and we learn by doing. We must start that process in a 
much more aggressive way than the CCTP even lays out the 
beginning of. I would submit that the next serious stage is to 
do what the CCTP has looked at within DOE in a much broader way 
across not only other Federal agencies but also with those 
States and those foreign governments that are making serious 
inroads here. That was largely lacking in the process.
    The benefits of investing in innovation are well documented 
by the world's economists. They are significant. They reach 
across many sectors of the economy. If we did this in the 
energy sector, the so-called clean tech area, we would see 
those benefits.
    Innovation leads to more innovation, whereas stagnation 
does not. We need to invest and we need to make clear signals 
where we want to get to.
    Finally, the point that Congressman Waxman so kindly made, 
and that is technologies do not adopt themselves. Programs that 
are technology-only focused will not succeed in this area. A 
critical difference not yet discussed with the differences 
between a DOE program is that there was essentially a single 
client for DOE efforts. Our clients here are companies, homes, 
utilities in the United States and around the world. It is not 
the same thing as having a single client, the Secretary of 
Defense, and sending a project forward. We need a broad 
strategy that marries in a sustained way energy R&D with 
efforts to bring technologies into the market. That is a 
critical step.
    On the next slide I highlight two things. One is the oft-
reported growing U.S. emissions in carbon. If we move ahead, 
that is our business-as-usual trajectory, depressing as it is. 
You will notice the next point forward shows not only where the 
administration's target, the so-called reduction in energy 
intensity, which in my view is a false and misleading way to 
lead out the strategy. Nature does not care how much we change 
our energy intensity; nature cares how much we reduce our 
loading of the environment with carbon. We need to have a 
target that is absolute and not a target that is a function of 
a percentage growth rate change.
    I highlight this with the Kyoto protocol target and a red 
line indicating what California has adopted through a series of 
measures, Assembly Bill 1493, Assembly Bill 32, Senate Bill 1, 
the million solar roofs measure that has near-term targets that 
we know are achievable. We believe we can do and we know how to 
do 20 to 25 percent reductions in the State, and we have heard 
excellent comments from Congressman Bill Ray about how the 
California Air Resources Board tasked to do that has done it in 
the past.
    The rest of the path we do not know how to do. The parts of 
this line to bring our emissions down in this later part of the 
picture we do not have a recipe for, but to look for single-
technology solutions, very expensive individual programs, 
without building out the first part of the curve is not to 
learn from the process of technology, innovation, and 
development that has been successful in many other areas.
    Run the marathon through here and determine your strengths 
down here. Do not delay until you think you have the magic 
bullet to get you down to the target.
    If you advance the slide one more time you will see a 
target is dramatic. If you can advance one more slide, the 
stabilization regime is down here. It is an 80 percent 
reduction. It is a large, overall process. Notice there is a 
gap, as Dr. Socolow calls it, a wedge here. If you go to the 
next slide there is a remarkable experience in the United 
States. The top lines show the overall increase in electricity 
use per person in the United States. The lower lines show the 
California and New York experiences.
    If we advance the slide, you will notice there is a 
remarkable wedge of energy efficiency savings. That was not 
envisioned and developed by a one-stop, one magic energy 
efficiency technology. It was a combination of better light 
bulbs, water heaters, standards for buildings, shading homes, 
etc. It was a cumulative process, the same sort of process we 
can expect to see if we invest significantly in energy 
efficiency in renewables as we do in energy efficiency.
    If we move to the next slide, we are seeing now in the 
world of ethanol, whether it is ethanol made from corn or 
ethanol made from cellulose, a dramatic increase in ethanol 
production and use, and many States are adopting more and more 
aggressive ethanol targets, and our lab has been involved in 
that process through a fairly high-profile paper in this area.
    This is an effort of increasing R&D and market 
opportunities at the same time. We must look for those in both 
areas, not just R&D, not just markets, but those working in 
concert.
    If we jump ahead a few more slides, this unfortunately is 
our current situation. The top line shows Federal energy R&D, 
the $3 billion number we heard before, the number here, and the 
black line below it shows private sector R&D. We have a mis-
match of private sector spending in this area. In fact, this 
does not have to be the pattern.
    If we look at the next slide, in the area of health care 
private sector R&D has been increasing for several decades, 
while in the energy sector it has been decreasing. A friend and 
colleague of mine, a former assistant secretary in DOE, noted 
sadly that this means that we will be alive to see the folly of 
our lack of investment in the energy sector.
    I conclude with the fairly simple but clear set of comments 
on the last slide, and that is this committee, with a largely 
bipartisan interest in these areas, has demonstrated that we 
are able to raise our expectations and raise our standards for 
investment in this area, that clean energy can be an area of 
tremendous innovation for the economy, an area that we would 
export to the world and benefit from. If we support States that 
enact aggressive policies such as the New England States, the 
mid-Atlantic States, California, some of the northwest States 
that are adopting renewable energy content requirements for 
their power, we can assist those areas undertaking experiments 
that we all want to see happen to determine which policies are 
the most effective and not wait for a magic bullet, single-
size-fits-all, DOD-mimicked solution.
    I would like to note, as well, if we jump to the next 
feature, that over the last 3 years we have observed a carbon 
tax of roughly $270 per ton in the run-up in gasoline prices. 
None of that has effectively gone into clean-tech R&D. We have 
paid this out of our pockets with that money going overseas 
without capturing it, as Dr. Socolow said, with a significant 
carbon tax. I recommend a much more modest initial tax to gain 
experience with the process, but that is exactly how we need to 
start to send the right signals to industry that we are serious 
about it, that we expect performance, and that we will award 
the performance in this area.
    I would like to again thank you for the chance to speak, 
and I urge us to take advantage of the opportunity to be the 
environmental leader that the United States is currently not 
doing relative to a number of other nations. It is our 
opportunity and our challenge to take on that leadership.
    Thank you very much.
    [The prepared statement of Mr. Kammen follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Tom Davis. I want to thank all of you for your 
testimony.
    The first question you always ask is, regardless of what 
California or the United States does, if everybody doesn't act 
together, particularly with the emerging nations, you know, you 
are penalizing yourself economically in not getting the same 
kind of results, but it starts here. I mean, all we can talk 
about in Congress is what we can do.
    Mr. Van Atta, let me just ask you. You stated in your 
testimony that ARPA's success is dependent upon a galvanized 
structure and direct oversight. Where do you think a climate 
change ARPA could be housed?
    Mr. Van Atta. Well, the most natural place would be the 
Department of Energy, but I would agree with others that 
probably not this Department of Energy. We have to find a way 
of having an imperative that is focusing on the energy and 
climate issues. If you chartered the Department of Energy to do 
that as its primary mission and the Secretary had that as the 
primary mission from the President, then an organization like 
this would be well housed there. If it is not that, then it 
would not succeed.
    Chairman Tom Davis. And right now, I mean, the report right 
now, there are no lines of authority anywhere. You have all 
these task forces and everything else. You know, my experience 
in government is that this is not the way to get anything done.
    Mr. Lane, what would a CCRPA be able to do that the CCTP 
doesn't have the capacity for right now?
    Mr. Lane. Well, I think if you organized it the way that 
our paper proposed to organize it, which is to say as a not-
for-profit government-financed but independent corporation, I 
think it would be insulated from the bureaucratic pressures for 
not very daring, not very breakthrough oriented technology that 
I fear characterizes part of the current DOE portfolio. I don't 
want to exaggerate that, but I think it all depends on 
insulating the entity doing the exploratory research to be able 
to operate the way Dr. Van Atta describes DARPA as operating. I 
don't think you can do that within the existing institution, so 
our proposal of a corporation was a way of trying to get around 
that.
    Chairman Tom Davis. Let me ask this. I come at it from a 
more political perspective, because that is the way I have come 
up through the ranks. I don't have a Ph.D in physics. I am a 
lawyer by training. But we find out when you put FEMA in 
Homeland Security it is competing for dollars with prevention 
dollars in Homeland Security and it gets starved. We found this 
in other agencies. The Federal Information Security Management 
Act without information security gets starved when you put it 
in competing with everything else.
    Making it a priority, that is one of the reasons, you know, 
you talk about Cabinet-level positions to make it priorities 
where it is not competing for precious dollars, discretionary 
dollars or anything. That is why I like the concept of an ARPA 
of some kind where you get the focus. I am just afraid, despite 
some good intentions of some people across the bureaucracy and 
even the administration, the way it is set up today I just 
don't see how we get from here to there. I guess that is the 
major concern.
    Let me just ask if anybody else has any thoughts on that. 
Mr. Hoffert, do you have any thoughts on that?
    Mr. Hoffert. Well, I mean, there are things that you can do 
immediately in the exploratory R&D program that we proposed. 
There is not a lot of money. It is not a lot of money. I think 
we were asking on the order of $30 million. What it would do is 
it would be a first stage of analyzing what kind of ideas are 
out there that aren't really being captured by the present 
Department of Energy structure where you don't have a champion. 
It is something that could be done now.
    Now, eventually, as I said in my statement, I really think 
the Department of Energy has to be restructured and given a 
mission. That is a very high-level decision. It is probably a 
Presidential decision. If you ask me what I would wish for, I 
would wish that, in time for the next Presidential elections, 
that both major political parties would realize that this is a 
vital interest of the United States, it is vitally important to 
U.S. policy and to the world. If you ask me, I think it is more 
important than terrorism and we would be having public debates 
about it and both parties, from whatever their ideological 
perspectives, would attempt to have a real energy policy, not 
just pork and reshuffling. I think that is important. That is 
something you guys can do.
    Chairman Tom Davis. We can, but let me just tell you this 
place, once you get this thing to the mish-mash between the 
House and the Senate and Members with their employment 
opportunities in their State it gets bogged down. It really has 
to start at the top. I am just telling you. I mean, I think all 
of us here have good will in trying to tackle this, but trying 
to get it through the mish-mash makes it very, very difficult.
    But you are right. I mean, I agree with you. It is a 
serious problem. We ought to be talking more about this. We 
ought to have an honest debate. There are differences of 
opinion about how we proceed, not just procedurally but what 
some of the functions are, and we don't even know 
scientifically everything we need to know in terms of what some 
of the options are. I think we agree it ought to be a priority.
    Anyone else want to add anything on that?
    Mr. Kammen. I agree that this needs to be a Cabinet-level 
position in time, but perhaps for a little bit different 
reasons, and that is that the benefits that would accrue to 
Commerce, to Agriculture, to Energy, to Defense come up in 
different settings in different conversations, and you discover 
that there is a security benefit by bringing down your oil.
    Mr. Socolow and I sit on a Defense Science Board looking at 
these issues right now. Commerce discovers that there is an 
unmet international need for importing high-efficiency power 
plants, not because of greenhouse gas issues, because they are 
more efficient and less costly to operate in the long term. 
These are all technological areas where U.S. companies are well 
set up to innovate but they are not doing their share, A, 
because they don't see the Federal leadership on this; B, 
because the Federal dollars flowing in are simply too small to 
tickle enough of those interests, much different than we see, 
for example, in NIH, where private sector funding in the health 
field is far ahead of the public funding, so the public can 
fill a role and fill gaps. That is what a better mission would 
be here, and that would require the sort of inclination that 
the Cabinet-level would hold.
    The benefits to our economy are very large. California is 
already adding up the tens of thousands of jobs that we expect 
to pull into the State because of the greenhouse gas 
requirements. Those are things that the United States could 
also capture as a peace or a green dividend by taking this on 
at that very highest Presidential cabinet level.
    Chairman Tom Davis. You think it is helping the economy in 
California?
    Mr. Kammen. It is documented. We have studies from 
universities, from private sectors----
    Chairman Tom Davis. I would love to see that.
    Mr. Kammen [continuing]. In and out of State. I would love 
to send the copies along. The estimates are that to meet the 
AB32 greenhouse gas standards California will generate about 
50,000 new jobs, largely high-tech, in-State jobs.
    Chairman Tom Davis. Because the general rap on California 
is it is a job killer. I will keep an open mind. I am 
interested to see it. I come from a District with a 2 percent 
unemployment rate out here in northern Virginia, but I would be 
eager to see that.
    Mr. Waxman.
    Thank you all very much.
    Mr. Waxman. I also want to thank all of the panelists. One 
of the things you may not be aware of is that the hearings are 
carried on the internal television coverage within the House, 
so I was away but I was able to watch your testimony and to 
read it, of course, from the statements that you submitted.
    Dr. Socolow, the administration's plan is to put off action 
on global warming for years to come. They continue to fund some 
research, but they would leave concrete action to address 
global warming to future administrations. They seem to think 
there is little meaningful action we can take now.
    You have done considerable work examining what technologies 
are available today. Can you explain more about what you call 
stabilization wedges and give us some examples of available 
technologies that could be deployed to fight global warming?
    Mr. Socolow. I don't think there are many people in the 
administration who would agree with everything I am about to 
say, and it really infuses the climate change technology plan. 
I called it One Hand Clapping. The program there makes no sense 
unless, alongside it, there is a motivation for early action, 
for trying things out.
    I will take the example of carbon capture and storage at 
coal plants. We shouldn't be building any coal plants from here 
on that don't further the goal of carbon capturing storage in 
all of them and keep as short as possible the transition from 
some of them to all of them. The DOE has a program on carbon 
capture and storage, a wonderful one, one of the best in the 
world. They, themselves, know that it makes no sense unless 
there is a carbon policy that goes with it, so we are not even 
going to get the taxpayers' benefit of the R&D without the 
associated program. This is widely understood. This is not a 
Democrat and Republican thing.
    Inefficiency technologies, again, the DOE has had a 
perfectly simple program and substantially pushing the R&D 
element of efficiency, but we could have tougher appliance 
standards across so many sectors and move these things out. The 
R&D goes hand in hand with the policies.
    In renewables, again, we have an incoherent renewables 
program as far as I can tell. If we had stronger signals that 
were broadly posed in terms of carbon price, for example, you 
would have better sorting out of the alternatives.
    We listed 15 wedges, each of which is a gigantic challenge 
worldwide to reach a point where you are contributing 15 
percent to the whole job 50 years from now. Each of these is a 
campaign. That is another word I like to use, a campaign or a 
strategy. It has to be globally coordinated. The United States 
is emitting one-quarter of the emissions today. We have 
technological leadership. We are slowing everybody else down by 
our inaction, which is another dangerous thing.
    We will bring the world along if we join, and we will 
conjoin along renewables, efficiency, and fossil fuel 
technologies in a very important way.
    Mr. Waxman. Thank you very much.
    Dr. Kammen, we are proud of California for the leadership 
that our State has shown in this whole area. To me, I strongly 
believe in States experimenting, but this is an area where we 
need Federal leadership. Maybe California's actions will spur 
it.
    You have testified that the administration's climate change 
technology program's strategic plan is seriously flawed. You 
state that the goal it seeks to attain is too modest. I would 
appreciate it if you could elaborate on that. And, moreover, if 
the administration were to achieve its so-called emission 
intensity target, would we have any confidence that we have 
meaningfully tackled global warming?
    Mr. Kammen. Let me start with your second question first. 
The answer is absolutely not. The emissions intensity target, 
as I said before, has no basis in the natural world. It doesn't 
address the fundamental question that we are putting in too 
much carbon, so we have to have an absolute target here, one 
that is measurable and quantifiable. California, as you know, 
has set up a carbon registry so that companies and 
municipalities track their emissions and look at them not on an 
intensity basis, which is a sliding scale based on how much you 
are growing, but based on overall emissions levels.
    And the most interesting first conclusion from that is that 
just by monitoring you discover some of the areas. I liken it 
to the frequent flyer effect. If you start to collect frequent 
flyer miles you want to spend them. Companies that tally up 
their numbers and discover they are saving this much, they 
could save more, want a market to sell those credits. That is 
what California's AB32 has in place. It has a market mechanism 
that extends across the economy and outside, because all 
electricity sold into California will be subject.
    I know of six coal-fired power plant plans that were on the 
table to be built in the mountain States to sell to California 
that have now been shelved as a result of what California has 
done.
    So the reach is impressive. You are right, we do need to 
have this go beyond not just California and the west but it has 
to extend to all countries.
    I do not believe there is a benefit, however, in waiting to 
act until we get this. Those municipalities, countries that 
export and have developed the best technologies will have the 
opportunity to export them for a variety of efficiency gains, 
and that really is the benefit that we are seeing in 
Scandinavia. We see parts of Germany and Spain doing the same 
thing, and Japan and California and New England. The Reggie 
Coalition is also taking an aggressive role in that. That is 
where the economic benefit lies.
    Mr. Waxman. Thank you very much.
    Chairman Tom Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you. Mr. Chairman, I want to thank 
all of the witnesses for your testimony. As Dr. Kammen said in 
his testimony, what we are measuring here against in terms of 
reductions is what has to be accomplished for the purpose of 
reducing the negative impacts of global warming, the human 
contribution to that to whatever level we feel is sustainable 
in terms of our own needs. The administration, when they talk 
about just reducing the rate of increase, that may not be 
enough if you are not reducing the rate of increase by the 
amount necessary to achieve the goals that we want.
    I also, although I am from the State of Maryland, I want to 
commend the State of California for its leadership on this 
issue and moving forward. I think you have already spoken to 
some of the immediate economic consequences in terms of 
decisions that are being made by coal-fired plants not just in 
California but outside of California.
    This is really a question for any of the witnesses. Because 
we have had testimony from various administration officials and 
you have heard their technology plan--there is no dispute about 
the need to invest in technology and renewable energy and 
energy efficiency. I mean, on a bipartisan basis people can 
agree and we should do it on an urgent basis and I think we 
should increase dramatically our investment in there. Where 
there seems to be disagreement, which is what Dr. Socolow 
really called the other hand for clapping, in other words, it 
is the need to invest in technology, but you really need that 
market forcing mechanism. You need to bring them both together. 
That is where there has been no political will. That is why the 
California legislation is important. That is where the 
administration has nothing to offer so far.
    So I guess my question for any of the panelists here, if 
you just take the administration's plan with respect to what 
they want to invest in technology and renewable energy, what 
kind of reductions, if any, are we going to see? And what is 
the gap between the reductions we will achieve if we just do 
everything they say as compared to where we need to be?
    Mr. Hoffert. I just want to make a personal observation. I 
live on Long Island, on Great Neck Long Island in New York, a 
suburb of New York City. Our family has signed up for green 
energy. We get electric power from upstate New York. We don't 
actually get the electrons. It is basically an offset, but we 
have to pay extra for that.
    Now, Long Island, where I live has a nuclear power plant 
called Shoreham that cost $6 billion. There are only 3 million 
people. That means every man, woman, and child is paying $2,000 
for a power plant that is never going to produce any kilowatt 
hours. Most of the people don't even know that is happening, 
and that is one of the reasons we have a very high rate base. 
And then, when wind power becomes available, we have to pay in 
addition to that.
    I think there is a really big problem of educating people 
so that they really understand where their utility bills go and 
how decisions that are made ultimately impact on them. I think 
there is also certainly a role for the Federal Government in 
making it financially desirable to do something like getting 
your power from green power, even though it means importing it.
    There is also a lot that can be done with hybrid cars. I 
heard Dan talking about that earlier. Probably the most 
effective near-term thing that could be done to reduce our 
imported oil, in conjunction with biofuels like ethanol, which 
I might have some problems with, but the combination of plug-in 
hybrids and ethanol is very desirable. You can't buy a car like 
that.
    I mean, I have a hybrid. I am not happy with it. It turns 
out I bought this Lexus hybrid before it was available on the 
market and the fuel economy is nowhere near what I was hoping 
it would be, but there are a lot of issues like that that I 
believe there is a role for incentives by the Federal 
Government that could really make a difference to the average 
person.
    Mr. Kammen. I'd be happy to. I'd actually like to defend 
the Department of Energy here. I believe that the language in 
the mission statements that are in the CCTP were really a 
product of a little bit of an earlier era, and that the sense 
of that document is what are a set of individual stovepipe 
policies that are attractive. Many of the individual things in 
the report are quite interesting, but what I think we have 
heard broadly across the board here and what I heard actually 
from the Members and their comments is that an integrated 
strategy is needed.
    Until you have the integrated strategy, in my opinion, with 
aggressive R&D, aggressive market policies, and a carbon tax 
you are not going to get the kind of document out of a tasked 
agency to do so, so I really think it is, and I would love to 
see a sense of the committee statement, a memo coming out 
saying we believe the following is in the national interest and 
this is what we should push for.
    It is those sorts of sentiments coming back to a Department 
of Energy, a restructured one or not, that will allow us to say 
what is our goal. In my opinion the goal is the 80 percent 
reduction in greenhouse gases, but over a very manageable 
period of time--a big challenge, but a manageable period of 
time, five decades or so. When those political statements come 
out, I think that the DOE can actually move itself quite far in 
the direction they want.
    Mr. Van Hollen. Thank you.
    Chairman Tom Davis. I think that the committee will try to 
work some bipartisan language on this. One of reasons we are 
holding the hearings is to establish a pretty solid link. Most 
Members understand there is a problem and are concerned about 
the way it is being addressed. It is not necessarily the goal, 
but just how you implement it. Where's the priorities?
    Dr. Socolow, we have just a second because I have a Cabinet 
Secretary waiting in the back. Go ahead.
    Mr. Socolow. I just wanted to say that there is a time 
warp, I think, too, in the way in which we are all looking at 
this problem. The climate scientists have raised the level of 
the alarm. I live among them in my own office. They can't 
believe we are going to take the risks of going above doubling 
the CO2 concentration. There isn't any urgency if we live with 
three times. So we have to keep reminding ourselves that there 
is a message coming from the science community, and as far as 
how much carbon we can put in for a given level, that is a 
completely agreed-upon area with very small uncertainties.
    Chairman Tom Davis. Thank you.
    Did you want to make one last comment?
    Mr. Van Hollen. I agree with you, Mr. Chairman. It would be 
important to get a sense of the Congress in terms of what goal 
we are trying to achieve, but the other half of that, of 
course, is how we get to the goal. I think, as I understand the 
testimony, just investment in R&D, alone, won't accomplish 
that. Is that fair?
    Mr. Socolow. Absolutely correct.
    Chairman Tom Davis. We agree. That is one of the reasons we 
are doing it.
    Thank you all very much. It has been very helpful for us.
    The hearing is adjourned.
    [Whereupon, at 1:20 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 <all>

</pre></body></html>
